                                            AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report

Fire Suppression and Related Services
at Los Alamos National Laboratory




DOE/IG-0821                                  September 2009
                               Department of Energy
                                 Washington, DC 20585
                                  September 11, 2009



MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Inspection Report on “Fire Suppression and
                          Related Services at Los Alamos National Laboratory”

BACKGROUND

The Department of Energy’s (DOE’s) Los Alamos National Laboratory (LANL) is a
multidisciplinary research institution engaged in strategic science on behalf of national
security. LANL operates in “unique” hazard environments, to include special nuclear
materials, explosives, and hazardous chemicals, that create special fire suppression and
emergency management challenges. To address these challenges, LANL must have a
comprehensive approach to the protection of personnel, facilities, physical assets, and
programmatic activities from fire and related dangers. LANL is managed for DOE’s
National Nuclear Security Administration (NNSA) by Los Alamos National Security,
LLC, which assumed responsibility for the management and operation of LANL on
June 1, 2006.

In December 1992, DOE directly acquired fire suppression and related services under a
5-year contract with the Incorporated County of Los Alamos (County). The Los Alamos
County Fire Department (LAFD) provided fire suppression and related services to LANL
and to the County. The contract expired in December 1997, but the Terms and
Conditions and the Statement of Work of this contract were continued through a series of
Pre-Contract Cost Agreements (PCCAs) between LANL and the County over
approximately the next 11 years. During this period, DOE paid 100 percent of the cost of
LAFD operations, totaling approximately $135 million.

Information was provided to the Office of Inspector General (OIG) that problems existed
with regard to fire suppression and related services at LANL. As a result, we initiated an
inspection to determine if fire suppression and related services at LANL are assured
through contractual arrangements with the County. On September 30, 2008, subsequent
to the initiation of our inspection, the NNSA entered into a Cooperative Agreement with
the County to provide fire department and related services to LANL.

RESULTS OF INSPECTION

We concluded that fire suppression and related services had not been assured through
contractual arrangements with the County. Specifically, we found that:

   Fire fighters had not been properly trained to confidently and effectively fight fires in
    the unique operational environments they may encounter at LANL facilities;
   Required pre-incident plans developed by the LAFD lacked the information necessary
    for fire fighters to effectively respond to incidents at LANL;

   Fire fighters did not have the knowledge of LANL facilities necessary to effectively
    respond in the event of an emergency, and their access to these facilities was
    sometimes precluded;

   The LAFD’s fire fighting capabilities have not been sufficiently demonstrated
    through exercises with documented assessments of their performance; and,

   The LAFD did not address a number of the long standing recommendations made in
    the 1995 and 2004 LANL Baseline Needs Assessments (BNAs), and DOE, including
    NNSA, failed to contractually require that they do so.

In addition, we determined that a number of these issues and concerns were previously
identified by the Defense Nuclear Facilities Safety Board (DNFSB) and the NNSA over
the past decade without resolution.

We concluded that the above conditions were caused by significant problems with the
administration of the contracting arrangements by DOE, NNSA, LANL, and the County.
We did not find evidence that anyone actively managed the fire suppression services
contract for a number of years. In addition, the PCCAs were inappropriately used in
place of a comprehensive contract over the nearly 11 year period from December 1997 to
September 2008.

After years of unsuccessful attempts to negotiate a contract with the County, on
September 30, 2008, the NNSA entered into a Cooperative Agreement that replaced the
11 year use of the PCCAs. Since February 2009, the Cooperative Agreement has
prompted actual and planned initiatives to address some of the conditions identified in
this report. However, the challenges facing NNSA, LANL, and the County are
significant, especially given the history of failed attempts to secure the appropriate level
of fire suppression services for LANL. We believe that the recent initiatives taken by the
NNSA under the Cooperative Agreement are good first steps, but additional actions are
needed. NNSA’s efforts must continue into the future with planned improvements being
realized in order to meet the special fire suppression and emergency management needs
of LANL. We made several recommendations to the Administrator of the NNSA to
address our findings.

MANAGEMENT REACTION

In responding to a draft of this report, NNSA agreed with the recommendations and
provided information on corrective actions taken or planned. In addition, NNSA stated
that they understood and agreed that there have been issues related to fire services
between the County of Los Alamos and NNSA. However, NNSA stated that the report,
as written, does not appear to take into consideration recent improvements to the
conditions identified in this report and focuses too much on the problems of the preceding
11 years. NNSA stated that they believe this has resulted in some mischaracterizations in
the report.
We consider management’s agreement with the report recommendations to be generally
responsive to our report findings. However, we take exception to NNSA’s assertion that
the report, as written, does not appear to take into consideration recent improvements to
the conditions identified. Our report specifically identifies areas where NNSA made or
has planned improvements in the areas of training, pre-incident planning, drills and
exercises, firefighter knowledge of facilities, disposition and tracking of BNA
recommendations, and performance based incentives.

We also take exception to NNSA’s assertion that the report focuses too much on the
problems of the preceding 11 years, resulting in some mischaracterizations in the report.
As stated in the report, since February 2009, the Cooperative Agreement has prompted
actual and planned initiatives to address some of the conditions identified in this report.
However, the challenges facing NNSA, LANL, and the County are significant, especially
given the history of failed attempts to secure the appropriate level of fire suppression
services for LANL. We believe that the recent initiatives taken by the NNSA under the
Cooperative Agreement are good first steps, but additional actions are needed.

Contrary to NNSA’s statement that these issues have resulted in some
mischaracterizations in the report, the report accurately characterizes the weaknesses in
fire suppression services that have existed at this Laboratory for many years. Continued
corrective actions are required in order to ensure that the risks to LANL’s facilities,
personnel, and operations are eliminated. Management’s comments are provided in their
entirety in Appendix B of the report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Los Alamos Site Office
    Director, Office of Internal Review (CF-1.2)
FIRE SUPPRESSION AND RELATED SERVICES AT
LOS ALAMOS NATIONAL LABORATORY

TABLE OF
CONTENTS
              OVERVIEW

               Introduction and Objective '.....................................................                                           1


              Observations and Conclusions                                                                                                 1



               DETAILS OF FINDINGS

               Fire Fighter Training ................................................................                                      4


               Pre-I ncident Plans ....................................................................                                    5


               Knowledge of Facilities and Access .....................................                                                    7


               Exercises and Performance Evaluations                                                                                       9


               Baseline Needs Assessment .................................................                                                11 


               DNFSB and NNSA Findings ..................................................                                                 12 


               Contract Administration ...........................................................                                        13 


               Use of Cooperative Agreement .............................................                                                 15 


               Government Performance and Results Act ........................                                                            17 


               Summary ....................................................................................                               18 



               RECOMMENDATIONS ..........................................................                                                 19 


              MANAGEMENT COMMENTS ..............................................                                                          20 


              INSPECTOR COMMENTS ....................................................                                                     20 


              APPENDICES

              A. Scope and Methodology ...................................................                                                21 


              B. Management Comments ..........................................................
                                                                              '                 -.............. _.. _- ...... _-- . . 
   22
Overview 


INTRODUCTION 
     The Department of Energy's (DOE's) Los Alamos National
AND OBJECTIVE 
    Laboratory (LANL) is a multidisciplinary research institution
                   engaged in strategic science on behalf of national security. LANL
                   operates in "unique" hazard environments, to include special
                   nuclear materials, explosives, and hazardous chemicals, that create
                   special fire suppression and emergency management challenges.
                   To address these challenges, LANL must have a comprehensive
                   approach to the protection ofpersonnel, facilities, physical assets,
                   and programmatic activities from fire and related dangers. LANL
                   is managed for DOE's National Nuclear Security Administration
                   (NNSA) by Los Alamos National Security, LLC, which assumed
                   responsibility for the management and operation of LANL on
                   June 1, 2006.

                   In December 1992, DOE directly acquired fire suppression and
                   related services under a 5-year contract with the Incorporated
                   County of Los Alamos (County), The Los Alamos County Fire
                   Department (LAFD) provided fire suppression and related services
                   to LANL and to the County. The contract expired in December
                   1997, but the Terms and Conditions and the Statement of Work of
                   this contract were continued through a series of Pre-Contract Cost
                   Agreements (PC CAs) between LANL and the County over
                   approximately the next 11 years. During this period, DOE paid
                   100 percent of the cost of LAFD operations, totaling
                   approximately $135 million.

                   Information was provided to the Office of Inspector General (OIG)
                   that problems existed with regard to fire suppression and related
                   services at LANL. As a result, we initiated an inspection to
                   determine if fire suppression and related services at LANL are
                   assured through contractual arrangements with the County. On
                   September 30, 2008, subsequent to the initiation of our inspection,
                   the NNSA entered into a Cooperative Agreement with the County
                   to provide fire department and related services to LANL.

OBSERVATIONS AND   We concluded that fire suppression and related services had not
CONCLUSIONS        been assured through contractual arrangements with the County,
                   Specifically, we found that:

                   • 	 Fire fighters had not been properly trained to confidently and
                       effectively fight fires in the unique operational environments
                       they may encounter at LANL facilities;




     Page 1 	                                      Fire Suppression and Related
                                                   Services at Los Alamos
                                                   National Laboratory
                                 • 	 Required pre-incident plans developed by the LAFD lacked the
                                     information necessary for fire fighters to effectively respond to
                                     incidents at LANL;

                                 • 	 Fire fighters did not have the knowledge ofLANL facilities
                                     necessary to effectively respond in the event of an emergency,
                                     and their access to these facilities was sometimes precluded;

                                 • 	 The LAFD's fire fighting capabilities had not been sufficiently
                                     demonstrated through exercises with documented assessments
                                     oftheir performance; and,

                                 • 	 The LAFD did not address a number of the long standing
                                     recommendations made in the 1995 and 2004 LANL Baseline
                                     Needs Assessments (BNAs)l, and DOE, including NNSA,
                                     failed to contractually require that they do so.

                                 In addition, we determined that a number of these issues and
                                 concerns were previously identified by the Defense Nuclear
                                 Facilities Safety Board (DNFSB) and the NNSA over the past
                                 decade without resolution.

                                  We concluded that the above conditions were caused by significant
                                  problems with the administration of the contracting arrangements
                                  by DOE, NNSA, LANL, and the County. We did not find
                                  evidence that anyone actively managed the fire suppression
                                  services contract for a number of years. In addition, the PCCAs
                                  were inappropriately used in place of a comprehensive contract
                                  over the nearly 11 year period from December 1997 to September
                                  2008.

                                  After years of unsuccessful attempts to negotiate a contract with
                                  the County, on September 30,2008, the NNSA entered into a
                                  Cooperative Agreement that replaced the 11 year use ofthe
                                  PCCAs. Since February 2009, the Cooperative Agreement has
                                  prompted actual and planned initiatives to address some of the
                                  conditions identified in this report. However, the challenges facing
                                  NNSA, LANL, and the County are significant, especially given the
                                  history of failed attempts to secure the appropriate level of fire
                                  suppression services for LANL. We believe that the recent
                                  initiatives taken by the NNSA under the Cooperative Agreement
                                  are good first steps, but additional actions are needed. NNSA's


I A Baseline Needs Assessment is an assessment ofthe fIre protection emergency response organization that
establishes the site fife fIghting capabilities.



Page 2 	                                                               Observations and Conclusions
         efforts must continue into the future with planned improvements
         being realized in order to meet the special fire suppression and
         emergency management needs of LANL.

         We note that an October 1995 OIG Audit Report, "Audit of Fire
         and Emergency Medical Services Cost Sharing Between the
         Department of Energy and Los Alamos County," determined DOE
         was paying about 99 percent of the cost of the LAFD while using
         about 47 percent of the services. This 1995 Audit recommended
         alternative methods for sharing costs or separating responsibility
         for these services. In addition, on June 23, 2009, the OIG issued
         an Audit Report on "Fire Protection Deficiencies at Los Alamos
         National Laboratory." This audit disclosed that many of the fire
         protection "pre-existing conditions" identified during the June 1,
         2006, LANL contract transition to Los Alamos National Security,
         LLC, had not been resolved.




Page 3                                   Observations and Conclusions
Details of Findings 


FIRE FIGHTER             We found that fire fighters had not been properly trained to
TRAINING                 confidently and effectively fight fires in the unique operational
                         environments they may encounter at LANL facilities.

Training Weaknesses      Under DOE's December 1992 contract with the County, the LAFD
                         was required to develop a training program to maintain a minimum
                         level of fire suppression service. Under this program, training for
                         fire fighters was required to meet National Fire Protection
                         Association (NFP A) 1001, "Standard for Fire Fighter Professional
                         Qualifications." In addition, the contract required pre-incident
                         training that provided a comprehensive working knowledge of
                         building protection, including technical indoctrination in nuclear
                         criticality, radiation protection, explosives, large electrical
                         installations, and LANL experimental facilities. The contract
                         stated that DOE was to provide training, as required, that involved
                         specific types of hazardous material that were unique to LANL
                         operations. The 1992 contract terms were carried forward under
                         the PCCAs until September 30,2008. (Training under the
                         Cooperative Agreement is discussed later in this report.)

                         Contrary to these requirements, fire fighters had not received the
                         necessary and required training for fighting fires at LANL.
                         Specifically, we determined that LAFD fire fighters had not been
                         trained in:

                             •   Nuclear criticality safety;

                             •   Glove box and special nuclear material fire fighting;

                             •   Explosives fire fighting;

                             •   Chemical and biological agent fire fighting; and,

                             •   Fighting fires involving gases.

                         The LAFD Annual Training Plan for 2008 only included 16 total
                         hours of LANL site specific training on an "as needed" basis,
                         without identifying detailed training requirements. During
                         interviews of LAFD fire fighters, the majority told us that they did
                         not feel prepared and trained to fight all types of fire incidents at
                         LANL.

Site Specific Training   In an effort to address these training shortfalls, LANL personnel
                         at Technical Area (TA)-16 and TA-55 recently developed site
                         specific training and guidance for emergency responders. Site



Page 4                                                                Details of Findings
                     officials recognized that, to adequately respond to incidents at
                     these highly sensitive facilities, the fire fighters needed additional
                     infonnation that was not provided in LAFD fire fighter training or
                     pre-incident plans.

                     The new site specific training and guidance included details
                     regarding facility fire scenarios, staging of LAFD equipment and
                     personnel, and fire fighting techniques. For example, at T A-16,
                     specific infonnation was provided to the LAFD on fire incidents
                     involving buildings with explosives. At T A-55, specific
                     infonnation was provided to the LAFD on extinguishing fires in
                     glove boxes involving nuclear material.

                     The efforts at TA-16 and TA-55 to develop site specific training
                     and guidance for emergency responders represent a proactive effort
                     on the part of LANL to improve fire suppression services.
                     However, other LANL facilities have special operational
                     environments that need to be similarly addressed.

PRE-INCIDENT PLANS   We found that required pre-incident plans (also referred to as pre­
                     fire plans) developed by the LAFD lacked the infonnation
                     necessary for fire fighters to effectively respond to incidents at
                     LANL.

Plan Elements        Under the December 1992 contract with the County, the LAFD
                     was required to implement a Pre-Fire Planning Program "to
                     develop and maintain [pre-incident] plans for incidents which the
                     Fire Department responds to." The contract required pre-incident
                     plans to be developed by the County, with infonnation obtained
                     primarily by on-site surveys, and reviewed at least annually or as
                     conditions warranted.

                     According to NFPA Standard 1620, "Recommended Practice for
                     Pre-Incident Planning," the pre-incident plan should be the
                     foundation for decision-making during an emergency situation and
                     should provide important data that will assist the incident
                     commander in developing appropriate strategies and tactics for
                     managing the incident. The principles identified in NFP A
                     standards were incorporated into DOE Order 420.1B, "Facility
                     Safety," and the DOE "Model" Fire Protection Program, which
                     demonstrates acceptable methods and examples to assist each DOE
                     site in meeting the fire protection program's objectives.

                      Pre-incident plans are required for every facility at LANL. We
                      reviewed the pre-incident plans for two critical facilities at LANL,
                      the plutonium facility at T A-55 and the Chemistry Metallurgy


Page 5                                                               Details of Findings
                        Research (CMR) facility. We found that these pre-incident plans
                        lacked critical information necessary for fire fighters to effectively
                        respond to fire incidents in these facilities and did not include
                        information recommended by NFPA Standard 1620 and DOE's
                        "Model" Fire Protection Program document. Specifically, the
                        plans did not contain:

                            • 	 Scenarios: Information used to anticipate likely scenarios;

                            • 	 Extinguishment: Any unusual materials or methods 

                                required for extinguishing fires; 


                            • 	 Exposures: A list of any buildings and/or other features
                                that might possibly be affected in an emergency situation;

                            • 	 Equipment response: The equipment that would normally
                                respond to alarms in each facility, as well as any special
                                equipment that might be needed, including backup
                                equipment for second alarm responses;

                            • 	 Plan of attack: Positioning of each fire engine and any
                                special information necessary for attacking fires in the
                                building; and,

                            • 	 Entry: A list of all entrances to the building.

Radioactive Materials   We also determined that, although the pre-incident plans for TA-55
                        and the CMR facility acknowledged the presence of radioactive
                        materials inside the buildings, neither plan identified: (1)
                        radioactive materials as a fire hazard; (2) the exact locations of the
                        radioactive materials; or (3) guidelines for extinguishing specific
                        radioactive materials. For example, plutonium, especially finely
                        divided material, is a radioactive fire hazard, and magnesium oxide
                        sand is the most effective material for extinguishing plutonium
                        fires. However. the pre-incident plan for the plutonium facility
                        failed to identify radioactive materials as a "Fire" hazard. only
                        showing radioactive material as an "Acute Health" and a "Chronic
                        Health" hazard. In addition. the plan did not identify the locations
                        of plutonium or that magnesium oxide sand is the most effective
                        method to extinguish a fire involving plutonium.

Criticality Safety      In addition. we determined that the pre-incident plans for the
                        plutonium and CMR facilities did not incorporate criticality safety
                        controls for fire fighting in areas within or adjacent to "moderator­
                        controlled areas." DOE Order 420.1B establishes requirements for



Page 6 	                                                                Details of Findings
                    a criticality safety program applicable to DOE nuclear facilities and
                    activities that involve, or potentially involve, nuclear materials in
                    quantities beyond certain specifications. The Order specifies that
                    guidelines for fire fighting must be established for areas within or
                    adjacent to moderator-controlled areas, which are areas where
                    appropriate precautions must be taken when using water as a fire
                    fighting agent. DOE Standard 1158-2002, "Self-Assessment
                    Standard for DOE Contractor Criticality Safety Programs," requires
                    that pre-incident plans incorporate criticality safety controls.

Authority Havi ng   Further, for nearly the past 11 years, we did not find any evidence
Jurisdiction        that DOE, including NNSA, provided the LAFD with guidance on
                    the level of planning appropriate for: (1) the hazard environments
                    at LANL; and (2) the property being "pre-planned." NFPA 1620
                    states that the "authority having jurisdiction" has the responsibility
                    to determine the level of planning appropriate for the jurisdiction
                    and the property being pre-planned. DOE Order 420.1B identifies
                    the "Head of Field Element" as the "authority having jurisdiction,"
                    in this case the Los Alamos Site Office (Site Office).

                    In order to compensate for the lack of guidance from the "authority
                    having jurisdiction," we found that site personnel at the TA-55
                    plutonium facility recently took the initiative to address
                    deficiencies and weaknesses in the LAFD pre-fire plan through the
                    development of a TA-55 Facility Emergency Response Guide.
                    This Guide was intended to provide LAFD personnel with
                    information not found in the LAFD pre-fire plan. Consistent with
                    NFPA 1620, the Guide, which became effective on January 29,
                    2009, provided specific information on various types of
                    emergencies that were unique to specific areas of the plutonium
                    facility, as well as information on materials or methods required
                    for extinguishing fires at the facility. While the Guide for TA-55
                    is useful, it does not address the larger issue that the pre-incident
                    plans developed by the LAFD lack the information necessary for
                    fire fighters to effectively respond to incidents at LANL.

KNOWLEDGE OF        We found that fire fighters did not have the knowledge ofLANL
FACILITIES AND      facilities necessary to effectively respond in the event of an
ACCESS              emergency, and their access to these facilities was sometimes
                    precluded.

                    During our inspection, several LAFD fire fighters expressed
                    concern that their lack of knowledge of LANL facilities could
                    impact their ability to effectively respond to an incident.
                    Specifically, fire fighters said that:



Page 7                                                             Details of Findings
              • 	 It can be several years between site visits or tours of 

                  LANL's highly sensitive facilities; 


              • 	 Facility modifications or changes are not identified to the
                  LAFD in a timely manner;

              • 	 Changes in facility hazards are not provided to the LAFD
                  in a timely manner; and,

              • 	 Fire fighters are frequently rotated from station to station,
                  which negatively affects their ability to develop sufficient
                  knowledge of the facilities they need to respond to in their
                  assigned districts.

           Fire fighters also informed us of:

              • 	 Incidents in which badge readers denied LAFD personnel
                  access to facilities or did not work;

              • 	 Incidents where keys that should have allowed LAFD
                  personnel access to facilities did not work;

               • 	 Coordination problems with the scheduling of access to
                   LANL facilities during updates to pre-incident fire plans;

               • 	 Instances where they were denied access to areas inside
                   some facilities because of a lack of a "need-to-know;" and,

               • 	 Instances where computers onboard emergency vehicles
                   were not operational, so pre-incident plans could not be
                   viewed.

           We contacted LANL officials to discuss the issues listed above.
           LANL officials agreed that there have been some problems with
           badge readers and that some keys have not worked because locks
           have been changed without notifying the LANL key custodian.
           LANL officials also told us that electronic notifications are
           provided quarterly (or sooner if required) from LANL to the LAFD
           concerning physical modifications or changes to facilities as well
           as changes in facility hazards.

           An LAFD official confirmed that they do receive communications
           from LANL on these types of modifications and changes. We
           were told that this information is provided to the fire fighters
           through computer updates on a weekly basis (or sooner if



Page 8 	                                                  Details of Findings
                                  required). However, the LAFD official acknowledged that this
                                  process has .not been totally effective in ensuring that fire fighters
                                  are fully aware of such modifications and changes. The LAFD
                                  official told us that the fire department is taking steps to improve
                                  the process by verbally informing fire fighters of updates that
                                  affect their knowledge of facilities.

                                  Finally, we confirmed the condition involving computers onboard
                                  emergency vehicles by witnessing unsuccessful attempts by LAFD
                                  personnel to operate the onboard computer located on a primary
                                  response fire engine for LANL.

EXERCISES AND                      We found that the LAFD' s fire fighting capabilities had not
PERFORMANCE                        been sufficiently demonstrated through exercises with documented
EVALUATIONS                        assessments oftheir performance.

Exercises                          According to DOE Order ISI.IC, "Comprehensive Emergency
                                   Management System," emergency planning must include
                                   identification of hazards and threats; hazard mitigation;
                                   development and preparation of emergency plans and procedures;
                                   identification of personnel and resources needed for an effective
                                   response; and practicing response through training, drills, and
                                   exercises. We were told by LANL officials that LANL schedules,
                                   plans, coordinates, conducts, and evaluates exercises on a
                                   continuous basis at its nuclear and high and medium hazard
                                   facilities in accordance with direction in DOE Order 151.1 C.
                                   Drills and exercises are conducted as designated by LANL' s
                                   Emergency Operations Division. Development of exercises is
                                   based upon the facility/site hazards and types of scenarios
                                   identified in LANL' s Emergency Planning Hazard Assessment,
                                   which is used in preparation of LANL emergency plans and
                                   procedures.

                                   LANL officials told us that during the initial exercise planning
                                   phase, if it is determined that the exercise scenario warrants
                                   participation by the LAFD, LANL requests that a LAFD
                                   representative participates on the exercise design team. The LAFD
                                   representative would provide technical knowledge regarding
                                   LAFD operations and input for scenario development; develop
                                   guidelines and/or limitations regarding LAFD participation in the
                                   exercise; and, develop objectives specific for their organization.
                                   LANL officials said that the expectation for an effective exercise is
                                   that the LAFD would participate with a "real time response 2,"

2 "Real time response" is other than a staged or simulated response. The term is used to describe a typical response
as if the event were an actual emergency.



Page 9                                                                                    Details of Findings
                                  including a full complement of fire department personnel and
                                  equipment.

                                  However, we were told that when LANL contacts the LAFD to
                                  request its participation in the LANL exercise planning phase and
                                  the actual exercise, the common response from the LAFD is that it
                                  is unable to participate due to a lack of available manpower and
                                  resources. LANL officials also told us that on those occasions
                                  when the LAFD agreed to participate in an exercise, it would only
                                  send a Battalion Chief and his driver in one LAFD vehicle, an
                                  SUV. This limited response by LAFD to exercises results in the
                                  Battalion Chief simulating LAFD participation in the scenario
                                  rather than a "real time response." Thus, LAFD fire fighters have
                                  not sufficiently participated in exercises to validate their response
                                  capabilities.

                                  A LAFD official told us that they participate in the LANL
                                  exercises "as available." Further, we were told that the LAFD
                                  feels that the exercises are geared more towards testing LANL's
                                  capabilities and responses; not the fire department's, and they do
                                  not feel they always need to be there. We were told that the
                                  exercises tie them up, sometimes for up to four hours, where they
                                  are considered "out of service" and they would be unable to
                                  respond to other calls at LANL and the City of Los Alamos, which
                                  is their first priority. The LAFD official said that when they
                                  participate in a LANL exercise, they are unable to respond "real
                                  time" using resources already on duty because it depletes their
                                  manpower and resources, and "if the Lab wants us to be there, they
                                  will need to pay us overtime."

Assessments and                    According to DOE Order 151.1 C, LANL' s readiness assurance
Documentation                      must include assessments and documentation to ensure that
                                   stated emergency capabilities are sufficient to implement
                                   emergency plans. However, a LANL official told us that when
                                   "outside entities3," including the LAFD, participate in LANL
                                   exercises and drills, the "outside entities" develop their own
                                   objectives for inclusion in exercise planning, and those objectives
                                   are not evaluated by LANL. The official said that offsite response
                                   organizations, such as the LAFD, evaluate their own performance
                                   in an exercise against their own objectives. The official further
                                   said that other subcontractors to LANL have a more robust
                                   program tied to DOE requirements to evaluate and assess

3"Outside entities" is a tenn used by LANL to identify outside governmental authorities such as the Los Alamos
Police Department, U.S. Forest Service, U.S. Park Service, the Federal Bureau of Investigation, the State of New
Mexico, and the LAFD.



Page 10                                                                                  Details of Findings
                 perfonnance during participation in LANL exercises, but the
                 LAFD has never been held to the same level of accountability due
                 to the lack of a fonnal contract for many years. As a result, LANL
                 was not able to evaluate the perfonnance and capabilities of the
                 LAFD to timely and effectively respond to site emergencies.

                 The December 1992 contract between DOE and the County stated
                 in Part III, Statement of Work, Section XIV, Self Assessment
                 Program, that the Contractor (the County) shall develop and
                 implement a self-assessment program to provide means to assess
                 the perfonnance of the fire department. The Contractor shall
                 perfonn and document perfonnance evaluations and shall
                 document and perfonn corrective actions.

                 However, a LAFD official told us that they had never conducted
                 and documented perfonnance evaluations in any kind of self­
                 assessment that established and identified lessons learned or
                 corrective actions. This official also said that they did not evaluate
                 LAFD perfonnance in LANL exercises and that no one (i.e.,
                 NNSA, DOE, or LANL) had ever infonned them that they had to
                 conduct an evaluation of their exercise perfonnance. Another
                 official said that, if they identify any issues of concern at a LANL
                 exercise, their internal process is to handle it at that time in the
                 field, in the fonn of a brief discussion. This official also said that
                 if an issue of concern warranted any further discussion or review
                 "we may put it into an [LAFD] annual training plan."

                 We believe that (1) the LAFD's failure to fully participate in
                 planned LANL exercises and (2) LANL's, the LAFD's, and the
                 Site Office's failure to ensure that appropriate evaluations were
                 conducted of the LAFD's perfonnance prevents LANL and NNSA
                 from having the necessary assurances that the LAFD could provide
                 an appropriate level of response to an incident at LANL's unique
                 facilities.

BASELINE NEEDS   We found that the LAFD did not address a number of the long
ASSESSMENT       standing recommendations made in the 1995 and 2004 LANL
                 BNAs, and DOE, including NNSA, failed to contractually require
                 that they do so. This resulted in continuing weaknesses in the
                 capability of the LAFD to respond to a fire or other emergency
                 event at LANL since several of the outstanding recommendations
                 addressed training, staffmg, and pre-incident plans.

                 DOE Order 420.1B states that a fire protection program requires a
                 BNA of the fire protection emergency response organization that
                 establishes the site fire fighting capabilities. The BNA is expected


Page 11                                                         Details of Findings
                to reflect applicable NFP A codes and standards and be updated at
                least every three years or whenever a significant new hazard is
                introduced that is not covered in the current BNA.

                LANL's 1995 BNA found a series of conditions and trends that
                indicated a significantly increased risk of fire at LANL. The BNA
                concluded that this situation was "a severe threat to the institution,
                its mission and its surroundings." The 1995 BNA contained 32
                recommendations, many of which addressed weaknesses in LAFD
                performance. These recommendations ranged from having fire
                department services provided by a single, highly professional
                entity to having better pre-fire plans that are site-specific and
                address the conditions found at LANL. The next BNA, conducted
                in 2004, contained 17 recommendations, including 6 from the 1995
                BNA that had not been addressed. We note that this approximately
                9-year lapse of time between BNAs was not consistent with the 3­
                year update requirement of DOE Order 420.1B.

DNFSBAND        We determined that a number of these issues and concerns
NNSA FINDINGS   were previously identified by the DNFSB and the NNSA over the
                past decade without resolution. For example:

                • 	 In August 1999, the DNFSB found that neither LANL nor the
                    LAFD presented data addressing important program features
                    such as pre-fire plans; LAFD staffing, training, and equipment;
                    and the use of a BNA;

                • 	 In June 2002, the NNSA concluded thatthe consequence of
                    several years of delay in negotiating a contract between LANL
                    and the LAFD was that minimum expectations regarding the
                    capability of the LAFD to respond to emergencies in a timely
                    and effective manner were not clearly defined, documented,
                    and agreed upon; and, therefore, they may not be met;

                • 	 In April 2005, the DNFSB found that there was no corrective 

                    action plan in place to address the recommendations of the 

                    2004 BNA, which had been intended to address staffing, 

                    training, and equipment needs for the LAFD; and, 


                • 	 In December 2008, the DNFSB indicated that there were 

                    weaknesses in the capability of the LAFD to respond to a fire 

                    or other emergency event in the unique hazard environment 

                    associated with defense nuclear facilities at LANL, citing 

                    minimal progress in closing the recommendations from the 





Page 12 	                                                      Details of Findings
                    2004 BNA, which corresponded to weaknesses in staffmg,
                    training, and planning observed during recent exercises.

                    The DNFSB also concluded that observations regarding recent
                    site exercises suggested significant weaknesses in the ability of
                    the LAFD to provide an appropriate level of emergency
                    response to LANL's defense nuclear facilities and indicated a
                    lack of comprehensive training and hazard awareness,
                    insufficient staifmg, and a lack of individual facility response
                    planning. The DNFSB stated that these observations required
                    near-term actions to improve emergency responders' training,
                    pre-planning, and familiarity with the defense nuclear facilities
                    at LANL. The DNFSB also noted the need to refine exercise
                    objectives of emergency responders, including the LAFD, in
                    order to assess the effectiveness of training and planning more
                    rigorously.

CONTRACT         We concluded that the preceding conditions were caused by
ADMINISTRATION   significant problems with the administration of the contracting
                 arrangements between DOE, NNSA, LANL, and the County.

Administration   We did not find evidence that anyone actively administered or
                 managed the fire suppression services contract for a number of
                 years. As early as March 1994, DOE proposed transferring the
                 administration of the fire suppression contract with the County to
                 LANL. At that time, LANL raised several questions regarding the
                 proposed transfer, including what was the defmition of
                 "administration" and what were the roles, responsibilities, duties,
                 authorities, and requirements of the contract administrator. We did
                 not find evidence that these questions were addressed.

                 When the 1992 contract ended in December 1997, it was continued
                 through the use of PC CAs that incorporated by reference the
                 Terms and Conditions and the Statement of Work of the 1992
                 contract. LANL and the County were the signatories on the
                 PCCAs, creating the appearance that LANL would administer the
                 agreements. However, based on our interviews of DOE and LANL
                 personnel, there apparently remained considerable confusion over
                 the roles, responsibilities, and authorities under the PCCAs.
                 Current LANL officials were under the impression that DOE
                 directed LANL to enter into the PCCAs with the County.

                 Given that the Terms and Conditions and the Statement of Work of
                 DOE's 1992 contract with the County carried forward in the
                 PCCAs, it is unclear to us how DOE could assign LANL
                 responsibility for administering a Federal contract, which is an


Page 13                                                        Details of Findings
                  inherently governmental function. We were told by one NNSA
                  contracting official that the transfer of a DOE prime contract to
                  LANL was "illegal." We were told by another NNSA contracting
                  official that there was no known mechanism for effecting this
                  transfer. We did not identify any evidence showing how this
                  transfer took place or under what authority.

                  A contracting official for Los Alamos National Security, LLC, told
                  us that they viewed their role as a "transfer agent" in relation to the
                  fire suppression and emergency services being provided by the
                  County. As a transfer agent, they ensured the County was funded
                  to provide the fire suppression and emergency services, but they
                  did not issue direction to the County, nor did they evaluate the
                  level of service to ensure that the services provided met the
                  requirements of the PCCA. We were told that in instances where
                  there were issues with the services being provided by the County
                  or with the PC CAs, LANL viewed these issues as being the
                  responsibility ofNNSA and referred them to the Site Office.

                  In contrast, no official that we spoke to accepted responsibility for
                  management of the PCCAs between December 1997 and
                  September 2008. A Site Office official told us that, to the best of
                  his recollection, the responsibility for providing day-to-day
                  direction to the fire department and administration of the
                  contracting arrangement belonged to LANL. This official said that
                  ifLANL encountered any difficulties in performing those
                  functions, the Site Office would intervene, as necessary.

Use of the PCCA   We also determined that the PCCAs were inappropriately used in
                  place of a comprehensive contract over the nearly 11 year period
                  from December 1997 to September 2008. As the name states, Pre­
                  Contract Cost Agreements are supposed to be used when there is a
                  need to allow a subcontractor to begin work before a subcontract
                  can be issued. As such, PCCAs are not intended to be used for
                  such an extended period of time. In fact, LANL's own internal
                  policy states that the period covered by a PCCA shall not exceed
                  45 working days. Extensions beyond 45 days can be authorized,
                  but the use of this authority for nearly 11 years clearly goes beyond
                  the intent of the agreements.

                  We note that when Los Alamos National Security, LLC, took over
                  management of LANL in 2006, it identified the use of the PCCAs
                  as a "preexisting condition" that needed to be addressed.
                  However, NNSA directed Los Alamos National Security, LLC, to
                  continue using the PCCAs until a new agreement was reached with
                  the County. Therefore, the misuse ofthis instrument continued


Page 14                                                           Details of Findings
                         until September 2008. As a result, problems with the
                         administration of this agreement persisted for more than a decade
                         without resolution, and weaknesses in the areas of fire fighter
                         training, knowledge of facilities, pre-incident plans, and exercises
                         went unabated.

USE OF COOPERATIVE After years of unsuccessful attempts to negotiate a contract with
AGREEMENT          the County, on September 30, 2008, the NNSA entered into
                   a Cooperative Agreement that replaced the nearly 11 year use of
                   the PCCAs. Since February 2009, the Cooperative Agreement has
                   prompted actual and planned initiatives to address some of the
                   conditions identified in this report.

Reaching an               In December 1997, DOE directed the University of California,
Agreement                 which was the LANL management and operating contractor at the
                          time, to negotiate a new contract with the County. Between 1997
                          and April 2005, the University engaged in negotiations that only
                          resulted in the development of a draft Request for Proposal (RFP).
                          The Site Office did not accept the draft RFP and directed LANL to
                          stop any future work. In June 2005, Site Office officials took over
                          responsibility for negotiating a new contract with the County.
                          However, the Site Office officials found that the County was not
                          willing to sign a contract because the County took exception to the
                          "flow-down" terms and conditions of Federal and DOE
                          Acquisition Regulations. Subsequently, NNSA officials at the
                          Albuquerque Service Center took over responsibility for
                          negotiating a new contract with the County, but these officials
                          were met with similar objections by negotiators for the County.

                          In an effort to accommodate the County, NNSA decided to pursue
                          a Cooperative Agreement in lieu of a comprehensive contract. In
                          deciding to use a Cooperative Agreement to acquire fire
                          suppression services for LANL, NNSA said it reasoned that the
                          primary purpose was to carry out a public purpose of support for
                          the County and NNSA.

                          Since the principal purpose of this agreement was to acquire
                          services for the direct benefit of the Government, a contract
                          between NNSA and the County would have been the more optimal
                          instrument to use under DOE policy. DOE's "Guide to Financial
                          Assistance" states that Cooperative Agreements are used when the
                          principal purpose of a transaction is the transfer anything of value
                          to accomplish a public purpose of support, but it also states that
                          project benefits or uses should only be indirect or incidental in
                          nature. The Guide states that a contract should be used when the
                          principal purpose of the instrument is to acquire (by purchase,


Page 15                                                                 Details of Findings
                        lease, or barter) property or services for the direct benefit or use of
                        the Govetnment.

Improvements to         However, since February 2009, the Cooperative Agreement has
Conditions Identified   prompted actual and planned initiatives to address some of the
                        conditions identified in this report.

                        Specifically, the Cooperative Agreement requires the County,
                        NNSA, and LANL to collaboratively develop exercises, drills, and
                        site specific training commensurate with the various hazards at
                        LANL, with particular emphasis on nuclear and industrial hazards.
                        The Cooperative Agreement also requires that the County
                        participate in these exercises, drills, and site specific training. In
                        addition, NNSA is to ensure that the exercises, drills, and site
                        specific training are provided to the County without additional cost
                        to the Cooperative Agreement.

                        The NNSA designated LANL as the Technical Monitor for the
                        administration of the Cooperative Agreement in a memorandum
                        dated December 10,2008. LANL was required to provide
                        specialized and site-specific training for all LAFD uniformed
                        responders and command personnel ofthe LAFD. Initially LANL
                        had questions about the sufficiency ofthe Cooperative Agreement.
                        In a letter dated January 12,2009, to the NNSA Site Office
                        Manager, LANL responded to the December 10, 2008,
                        memorandum, stating that while the Cooperative Agreement
                        represented a major improvement in the formal relationship
                        between the County and DOE, some wording in the Cooperative
                        Agreement provided for potential gaps in LAFD services. One
                        area specifically addressed was training, stating that "there is
                        currently no capability, funding, or planning in place to conduct
                        this training." However, we were told by a LANL official that this
                        concern has been resolved and that a number of actual and planned
                        initiatives are under way. These include:

                            • 	 A 2009 LAFD Training Plan has been developed and was
                                approved in March 2009.

                            • 	 117 LAFD fire fighters have been provided with
                                Emergency Responder Radiological Training (ERRT)
                                between February and April 2009.

                            • 	 119 LAFD fire fighters have been provided Pyrophoric
                                Material Glove Box Firefighting Training between April
                                and the end of June 2009.



Page 16 	                                                                Details of Findings
                     • 	 Additional LAFD fire fighter training is planned for
                         calendar year 2009 to include the use of Contaminated
                         Personnel Protection Equipment and Unique Hazardous
                         Materials Emergency Response, including high explosives,
                         beryllium, biological agents, and tritium.

                     • 	 Establishment of a 3-party (LANL, LAFD, and the Site
                         Office) Fire Fighter Training Advisory Board which met
                         for the first time on April 9,2009.

                     • 	 LANL Facility Tours have been scheduled for 2009 and
                         2010. Tours ofTA-55 and TA-50 were in progress as of
                         February 2009. Additional Tours for TA-3, TA-54, and
                         TA-16 are scheduled for 2009 and 2010.

                     • 	 A new BNA was approved by NNSA on May 19,2009,
                         and NNSA has directed LANL to ensure that the 2009
                         BNA recommendations are formally disposed of and
                         tracked to closure.

                  In addition, the 2009 LAFD Training Plan makes limited reference
                  to pre-incidents plans and indicates that Tour/Training information
                  will "translate" to LAFD pre-incident plans. Also, the 2009 LAFD
                  Training Plan makes limited reference to LANL drills and
                  exercises, stating that "LAFD may participate in some of the
                  various facility drills and exercises as requested by LANL"
                  according to a schedule identified in the plan. However, it is not
                  clear how these references will address the pre-incident planning
                  and exercise issues identified in this report.

GOVERMENT         We determined that the Los Alamos National Security, LLC,
PERFORMANCE AND   Performance Evaluation Plan does not address LANL fire
RESULTS ACT       suppression services, nor does it or the Cooperative Agreement
                  contain associated performance measures, consistent with the
                  intent of the Government Performance and Results Act (GPRA) of
                  1993. Since 1997, approximately $135 million of taxpayer dollars
                  have been spent for fire suppression and related services at LANL
                  without any accountability for achieving program results.

                  Performance measurement is mandated by GPRA in order to hold
                  Federal agencies accountable for achieving program results, as well
                  as, to promote a focus on service quality and customer satisfaction.
                  The Cooperative Agreement does not clearly create or establish a set
                  of performance measures for the LAFD. The Cooperative
                  Agreement includes a requirement for the County to provide a yearly



Page 17 	                                                      Details of Findings
            Progress Report assessing the status of work and a comparison of
            actual accomplishments with the established goals and objectives,
            but it does not address how the information will be used to achieve
            program results or promote service quality. The Cooperative
            Agreement does include broad objectives, such as providing an
            enhanced level of fire department services, and requirements in areas
            such as minimum staffing, response times, and training, which are a
            good starting point for establishing performance measures.

            We believe that NNSA needs to develop specific performance
            measures with associated incentives for the LAFD so that: (1)
            progress toward meeting the goals and objectives of the
            Cooperative Agreement can be demonstrated; (2) opportunities for
            improvement can be identified; and (3) past problems with the
            provision of fire suppression and related services are corrected.
            We note that the NNSA is in the process of establishing a
            Performance Based Incentive for FY 2010 to continue the effort to
            provide for enhanced fire department service training in 2010.
            Specifically, a draft document titled "LANL Enhanced Training of
            Fire Department Personnel" states that LANL shall collaboratively
            define, establish, and provide training for the delivery of enhanced
            fire department services at LANL in FY 2010.

SUMMARY 
   For nearly the past 11 years, fire suppression services have not
            been assured at LANL, placing LANL in a position of
            unacceptable risk to its facilities, personnel, and operations. In
            addition to critical breakdowns in the contractual relationships
            between DOE, NNSA, LANL, and the County, fire fighters did not
            have the tools they needed to effectively respond to an incident at
            LANL. In addition, DOEINNSA did not have an effective means
            of evaluating fire department performance during exercise and
            drills, and did not have the means to assure that appropriate
            corrective actions were identified and implemented.

            The conditions described in this report not only have the potential
            to severely disrupt the activities of a critical national asset, they
            also have the potential to severely disrupt LANL's critical national
            security missions. The challenges facing NNSA, LANL, and the
            County are significant, especially given the history of failed
            attempts to secure the appropriate level of fire suppression services
            for the unique hazard environments at LANL. We believe that the
            recent initiatives taken by the NNSA under the Cooperative
            Agreement are good first steps. However, additional actions are
            needed and NNSA' s efforts must continue into the future with
            planned improvements being realized.



Page 18                                                   Details of Findings
RECOMMENDATIONS 	 We recommend that the Administrator ofNNSA take immediate
                       action to ensure that:

                       1. 	 NNSA and LANL continue to develop site specific training
                            and guidance for emergency responders under a LANL-wide
                            initiative to improve the ability of the LAFD to respond to
                            incidents involving the unique hazard environments of LANL.

                       2. 	 Fire fighters continue to receive specialized training necessary
                            for the specific types of hazards and hazardous materials at
                            LANL, and that fire fighters are made aware of physical
                            modifications or changes to facilities as well as changes in
                            facility hazards in a timely manner.

                       3. 	 Pre-incident plans contain sufficient detail to provide an
                            effective response to incidents at LANL facilities, and that pre­
                            incident plans incorporate criticality safety controls consistent
                            with DOE Standard 1158-2002.

                       4. 	 Fire fighters are provided with routine tours ofLANL facilities
                            in order to gain the familiarity necessary to effectively respond
                            in the event of an emergency.

                        5. 	 Issues with fire fighters' access to facilities, to include issues
                             relating to badge readers and keys, are appropriately addressed.

                        6. 	 Computers onboard emergency response vehicles are effective
                             as the means of accessing and utilizing pre-incident plans.

                        7. 	 The LAFD fully participates in required exercises and drills
                             conducted at LANL where a real time response is expected,
                             and, consistent with DOE Order 151.1C, NNSA and LANL
                             have the capability to assess the fire department's emergency
                             response capabilities and address weaknesses while ensuring
                             corrective actions.

                        8. 	 All recommendations from Baseline Needs Assessments are
                             disposed of and tracked to closure.

                        9. 	 Appropriate performance measures are developed and
                             implemented in order to hold the LAFD and LANL
                             accountable for achieving program results as well as to
                             promote a focus on service quality and customer satisfaction.




Page 19 	                                                               Recommendations
             10. The entity responsible for administering the Cooperative
                 Agreement has the necessary capabilities, resources, and
                 authorities for effective administration.

MANAGEMENT   In comments on a draft of this report, NNSA agreed with the
COMMENTS     recommendations and provided information on corrective actions
             taken or planned. In addition, NNSA stated that they understood
             and agreed that there have been issues related to fire services
             between the County of Los Alamos'and NNSA. However, NNSA
             stated that the report, as written, does not appear to take into
             consideration recent improvements to the conditions identified in
             this report and focuses too much on the problems of the preceding
             11 years. NNSA stated that they believe this has resulted in some
             mischaracterizations in the report.

INSPECTOR    We consider management's agreement with the report
COMMENTS     recommendations to be generally responsive to our report findings.
             However" we take exception to NNSA's assertion that the report,
             as written, does not appear to take into consideration recent
             improvements to the conditions identified. Our report specifically
             identifies areas where NNSA made or has planned improvements
             in the areas of training, pre-incident planning, drills and exercises,
             firefighter knowledge of facilities, disposition and tracking of
             BNA recommendations, and performance based incentives.

             We also take exception to NNSA's assertion that the report focuses
             too much on the problems of the preceding 11 years, resulting in
             some mischaracterizations in the report. As stated in the report,
             since February 2009, the Cooperative Agreement has prompted
             actual and planned initiatives to address some of the conditions
             identified in this report. However, the challenges facing NNSA,
             LANL, and the County are significant, especially given the history
             of failed attempts to secure the appropriate level of fire suppression
             services for LANL. We believe that the recent initiatives taken by
             the NNSA under the Cooperative Agreement are good first steps,
             but additional actions are needed.

             Contrary to NNSA' s statement that these issues have resulted in
             some mischaracterizations in the report, the report accurately
             characterizes the weaknesses in fire suppression services that have
             existed at this Laboratory for many years. Continued corrective
             actions are required in order to ensure that the risks to LANL' s
             facilities, personnel, and operations are eliminated.




Page 20                                                Recommendations
                                      Management and Inspector Comments
Appendix A 


SCOPE AND      We conducted the majority of our inspection fieldwork between
METHODOLOGY    August 2008 and February 2009. We reviewed applicable policies
               and procedures for facility safety, nuclear criticality safety, and a
               comprehensive emergency management program. These reviews
               also included applicable NFP A standards.

               In addition to reviewing applicable criteria, we also conducted
               extensive interviews with individuals within the affected entities,
               including DOE, NNSA, the LAFD, and Los Alamos National
               Security, LLC.

               Pursuant to the "Government Performance and Results Act of
               1993," we reviewed the LANL 2009 Performance Evaluation Plan.
               We determined that this plan did not contain performance
               measures and expectations for fire suppression services; however,
               providing fire suppression services is not a requirement under the
               LANS contract. In addition, we found no specific performance
               measures and expectations, consistent with the intent of GPRA that
               have been developed by the NNSA for the services provid~d by the
               County under the Cooperative Agreement. We have addressed the
               lack of performance measures and expectations in the body of this
               report.

               This inspection was conducted in accordance with the "Quality
               Standards for Inspections" issued by the President's Council on
               Integrity and Efficiency.




Page 21                                                Scope and Methodology
Appendix B 





                                            Department of Energy 

                                     National Hueleer Security AdmInistration 

                                              Washington, DC 20585 


                                                AUG 2 1 2::.:9


            MEMORANDUM FOR              Herbert Richardson
                                                                              .L-J
            FROM:
                                        Principal Deputy Inspecto~G
                                        Michael C. KAne  X
                                        Associate Administrato
                                                                         .;-PjYr-----­
                                         for Management and Administration

            SUBJECf: 	                  Comments to the IG Draft Report, LANL Fire Suppression,
                                        Proj. No. S081S013; IDRMS No. 2008-02869


            The National Nuclear Security Administration (NNSA) appreciates the opportunity to
            review the Inspector General's (IG) report, Fire Suppression tmd Related Services at Los
            Alamos National Laboratory. I understand that the 10 initiated this inspection to
            determine if fire suppression and related services at the Los Alamos National Laboratory
            (LANL) are assured through contractual arrangements with the County.

            NNSA understands and aarees that there have been issues related to fire services between
            the County of Los Alamos and NNSA. However, the statement the IG made that LANL
            provides unacceptable risk to its facilities, personnel, and the County of Los, Alamos is
            misleading and an unfortunate statement.

            In the past year, the exhaustive, comprehensive, and collaborative efforts of LANL, the
            Los Alamos Fire Department (LAFD), and the Los Alamos Site Office (LASO) have lead
            to more open communication, a better trained firefighting force, and the improved
            confidcDl:e of firefiahtin& personnel to provide for an effective and safe response for fire,
            medical, or hazardous material emergencies at LANL. The report disregards these recent
            aainI and focuses too much on the problems of the preceding nine years. LANL, LASO,
            and LAFD are moving past these issues and the report as written does not appear to take
            into c:onsideration the progress that we have taken and, therefore, we believe that there
            are some miiICharacterizatioDl in the report. Attached are comments from the Site Office
            for your consideration.

            NNSA agrees with the recommendations and corrective actions that have been taken or
            Will be taken.

                1. 	 Continued dew.lopment of sit. spedlie traiaiDl: Corrective actions for this
                     recommendation have been previously identified via the LASO approved LAFD
                     Training Plan and the FY 20 I 0 Performance Based Incentive designed by the Site
                     Office. A training process is already well underway and future· efforts are




Page 22 	                                                                              Management Comments
Appendix B 




                                                                                                 2


               already captured in LASO planning efforts for FY 2010. NNSA believes the
               intent of the recommendation has been met and considers this closed.
            2. 	 Fireflgbter specialized traioiDg, updates to haards: Corrective actions for
                 thb recommendation have been previously identified via the LASO approved
                 LAFD Training Plan, current training activities, and the FY 2010 Performance
                 Based Incentive designed by the Site Office. A training process is already well
                 underway and future efforts are already captured in LASO planning efforts for FY
                 2010. NNSA believes the intent of the recommendation has been met and
                 considers this closed.
            3. 	 Pre-Ineident Planning Improvemeats: Corrective actions for this
                 m:ommendation have been previously identified via the LASO approved FY
                 2009 Baseline Needs Assessment recommendation (Rce 14), for which corrective
                 actions are already underway. Concerns have already been identified and
                 corrective actions are pending. Actions win be completed by the end ofFY 2010.
            4. 	 Fi.refi&bter Tours: Corrective actions for this recommendation have been
                 previously identified via the LASO approved LAFD Training Plan, current
                 fiv;ility tour activities, and the FY 2010 Performance Based Incentive designed by
                 the Site Office. A tour program is already well underway and future efforts are
                 alIeady captured in LASO planning efforts for FY 2010. NNSA believes the
                 intent ofthe recommendation has been met and considers this closed.
            S. 	 Improvement to Firefighter Aeeess to Faeilitiea: Corrective actions for this
                 recommendation have been previously identified via the LASO approved FY
                 2009 Baseline Needs Assessment recommendation (Rec 6), for which corrective
                 actions are already underway. Concerns have already been identified and
                 corrective actions are pending. Actions will be completed by the end ofFY 2010.
            6. 	 Vchiele Computer UtDbation: LASO will evaluate this concern as part of the
                 FY 2009 LASO Fire Department Assessment. Actions will be completed by the
               . end ofFY 2010.
            7. 	 LAFD Esereise Partieipatioa, LASO Aucum.ent: The Cooperative
                 A&reement, signed by NNSA and Los Alamos County on September 30, 2008,
                requires LAFD exercise participation and an annual assessment ofLAFD
                activities by the Site Office Program Manaser. As noted earlier in this docUDlalt,
                these actions are underway. The office ofNNSA Emergency Management
                Implementation. NA-43. supported LASO in the annual assessment of the LAFD
                during July 2009. NA-43 will continue to provide support for these and other
                emergency-management related activities as requested by the Site Office
                Emergency Management Program Manager. These activities are documented via
                the Cooperative Agreement and are being completed in FY 2009. NNSA believes
                the intent of the recommendation has been met and considers this closed.
            8. 	 BNA RecommeadatioD, Disposition and elolun: LASO directed this action to
                 be accomplished when it approved the FY 2009 BNA on May 19,2009. NNSA
                considers this recommendation closed.




Page 23 	                                                                        Management Comments
Appendix B 




                                                                                                     3


                9. 	 Perform.ace Measures Developed: As noted earlier, LASO has designed a FY
                     2010 Performance Based Incentive to improve training, tours, and hazard
                     identification by LANL to the LAFD. NA-43 participates in the corporate
                     process for fonnulating performance measures and objectives to improve
                     emergency management performance as well as monitors and evaluates
                     performance of the Emergency Management Programs against performance
                     measures and targets in their PEP. Additionally, the Cooperative AgreeIl1C!lt
                     allows LASO to terminate the agreement with the County, as desired. As such,
                     performance measures are already in place. NNSA considers this
                     teCOmmendation closed.
                10. Cooperative Agreemeat Effective AdmiDistratioa: The NNSA Service Center
                    and LASO have the capabilities, resources, and authorities for effective
                    Cooperative Agreement administration. There are no further actions for NNSA to
                    take on this teCOmmendation and considers it closed.

            Should you have any questions related to this response, please contact JoAnne Parker,
            Acting Director. Policy and Internal Controls Management, 202·586-1913.



            cc: 	   Revitalization Manager, Loa Alamos Site Office
                    Senior Procurement Executive
                    Director, Service Center




Page 24 	                                                                         Management Comments
Appendix B 




                                                                                                       4


                            LASO's Commeats to the Draft IG Iaspeetioa Report: 

                 Fin Suppreuio& ad Related Services at Los Alamos N.tioaal Laboratory 


            A review of the above document continues to identify discrepancies regarding the status
            of the services provided by the L05 Alamos Fire Department (LAFD) to the Los Alamos
            National Laboratory (LANL). The current overarching problem with the report is that it
            does not integrate within the report the many numerous beneficial activities that have
            been completed by LAFD, LANL, and the Los Alamos Site Office {LASO) since the
            signina of the Cooperative Agreement {CAl on September 30, 2008. Although the report
            cites problems with this program over the past decade, it is LASO's belief that the
            progress in firefighter training, facility and hazard knowledge and exercise performance
            mIde in the last nine months is reflective ofthe commitment of the three parties to
            correct these long-standing issues. The report incorrectly cites the following deficiencies
            (in boJ.dfilce) whereas the current state ofthe program is not addressed.

            lDadequate Training to LAFD 0& Uniq_ LANL ad Site Specifie Hazards: The IG
            Report incorrectly notes that LAFD firefighters had not been trained in criticality safety,
            glovebox and special nuclear material firefighting, explosives fireflghting, chemical and
            biological agent firefighting. Despite LASO and LANL providing details on the training
            performed and planned for Los Alamos County firefighters, through the Site Office
            approveC 2009 LAFD Training Plan, the report does not identify. in this section, the
            training activities regarding the:
                 • 	 Emergency Responder Radiological Training (ERRT).
                 • 	 Pyrophoric Material Glovebox Firefighting Training.
                 • 	 Upcoming activities related to training plan commitments for additional training
                      courses, including in calendar year 2009:
                         o 	 Unique hazardous materials emergency response, including high
                             explosives. beryllium, biological agents. and tritium.
                         o 	 Contaminated personal protection equipment donning and dof'fing
                         o 	 Annual ERRT Training.
                • 	 Establislunent of a three-party (LANL, LAFD. and LASO) Firefighter Training
                     Advisory Board.
                • 	 Establishment of a performance baled incentive for FY 2010 to continue the
                     effort to provide for enhanced fire department service training next year.

            Althouah these activities are noted in the "Improvements to Conditions Identified"
            section in the rear of the report, many of these actions clearly contradict statements in the
            Il:lCRalannin& "Training Weaknesses" section. Additionally. the report continues to cite
            interviews with Los Alamos County firefighters that were performed before the rollout of
            these specific actions, and thus do not reflect what LASO believes is a better trained and
            more toofident fIrefighting force.
            Finally, the report incorrectly mentions this training as specific to TA-16 and TA-55,
            whc'eu such training is applicable to other explosive and nuclear facilities across the
            laboratory. This is a misinterpretation of the training approach and applicability of
            response techniques. The report does not reflect the amount ofeffort and success ofthe




Page 25 	                                                                             Management Comments
Appendix B 



                                                                                                       S

            'I'.bre& parties to provide this newly developed training to LAFD and the commitment of
            USO to continuing the effort.

            Pre-IDdcilDt PlaDs LaekiDg Required IDformation: The CA provided the vehicle to
            address this solf-identified (see 2009 BNA, Recommendation 14) deficiency through the
            requirement for the collaborative establishment of a LAFD Training Plan. The LASo­
            approved 2009 UFD Training Plan notes that the facility tours and training provided to
            firefi&bfers in 2009 will trIn5I.ate to a LAFD pre-incident plan capturing:
                  • 	 Incident response elements or scene factors particular to LANL facilities or
                      operations
                  • 	 Ventilation system and filter plenum tactical fire fighting considerations
                  • Control of firewater runoff. 

             Through tours and ttaining provided in 2009, pre-incident plans for these facilities will 

             be revised, as necessary. As tours continue to be completed (the LAFD Training Plan 

             calls for upcoming tours at CMR [started June 19], WETF, and the NNSB building), 

             these pre-incident plans will be updated to capture this important information. 


            Lack of ladlity bowled. aDd aceeu: The CA provided the vehicle to address this
            previously identified deficiency through the requirement for the collaborative
            atabJisbment of a LAFD Training Plan. The LASo-approved 2009 LAFD Training Plan
            notes that the facility tours are to be coordinated with LAFD and scheduled thIoughout
            2009 and 2010. LANL and LAFD have coordinated to accomplish the following tours, to
            date, for the followina LANL hazardous material facilities:
                • 	 TA-SS, RLUOB [110 firefighters]
                • 	 TA-SS, PF-4 and surrounding buildings [90 firefighters]
                • 	 TA-SO, RLWTF [12 officers]
                • 	 TA-3, SIGMA and BTF [6S firefighters]

            Thcae are extensive tours, typically 2-4 hours in duration depending on the size of the
            facility. LAFD personnel learn about facility operations, hazardous materials, access
            points, ventilation controls, fire suppression capabilities, and expected facility support.
            The thnIe parties made the early determination to attempt to tour ALL firefighters on
            these tours due to shift rotations and the potential for multi-alarm response for a
            si&nificant event. Due to LAFO coverage concerns, such tours typical.ly consist of small
            teImI offirefighters and thus, many tours need to be provided.

            Additionally, the Cooperative Aareement requires LAFD participation for LANL
            hIzardous material facility exercises. LAFD, since FY2008, has been providing support
            for these exerciles (15-20 each year) which require their response to hazardous material
            release events (typical.ly due to flrCS or explosions) and have been raising their awareness
            ofpotential facility events, hazards, access requirements, fire suppression needs and
            capebilities, and LANL emeraency response support. The report incorrectly cites that
            LAFD commonly does not participate in such exercises. The report of a minimal
            participation may have been accurate for previous years, but with the CA stipulations,
            LAFD participation has been much improved in 2009.




Page 26 	                                                                              Management Comments
Appendix B 




                                                                                                6

          Oataide EDtitia Do Not Aslell LAFD: As mentioned, a previous conference call with
          OOE la, per the CA, LASO has a new requirement to accomplish an annual assessment
          ofLAFD activities. This first assessment is in progress. LASO, through support
          provided by the Office of Emergency Management Implementation (NA-43). contracted
          with a.retired Fire Chief with 3S years of experience, to assess LAFD perfonnance during
          the July 23n1 Full Scale Exercise. This exercise scenario involved an explosion with
          several casualties at the Beryllium Test Facility. LASO will issue this LAFD evaluation
          report prior to the end of this Fiscal Year.

          LAFD lack of.dioD OD previous BNA neommeDdatiD...: The draft 10 report does
          not address that the CA provided the impetus for a more rigorous and updated 2009
          BNA, which was approved by LASO on May 19. 2009. It fails to mention that LASO
          required that the 2009 BNA included a review of the status of the pmrious BNA (2004)
          1WC'MUD.f,!!')dlti ons, as these were not formally tracked by LANL or LASO. The 2009
          BNA concluded that, of the IS recommendations cited in the 2004 RNA (two oftbese
          were identified as out of scope of the 2009 BNA review), 12 had been fully or partially
          implemented. This 2009 RNA conclusion is in direct opposition to the concern ofnot
          addressing previously recommendations cited in the draft IO report. LASO has already
          directed LANL to ensure the 2009 RNA recommendations are formally disposed. of and
          tmck.ed to closure via the Laboratory's Issue Management Tracking System and resolved
          via an implementation plan. The success of LANL to complete these necessary
          eort'Cdive actions will be addreaed through performance based incentive measures in FY
          2010.




Page 27                                                                         Management Comments
                                                                     IG Report No. DOE/IG-0821

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. 	 What additional background information aboutthe selection, scheduling, scope, or
     procedures of the inspection would have been helpful to the reader in understanding this
     report?

2. 	 What additional information related to findings and recommendations could have been
     included in the report to assist management in implementing corrective actions?

3. 	 What format, stylistic, or organizational changes might have made this report's overall
     message clearer to the reader?

4. 	 What additional actions could the Office of Inspector General have taken on the issues
     discussed in this report which would have been helpful?

5. 	 Please include your name and telephone number so that we may contact you should we have
     any questions about your comments.


Name ___________________________ Dme ______________________________

Telephone _______________________ Organization _ _ _ _ _ _ _ _ _ _ __


When you have completed this form, you may telefax it to the Office ofInspector General at
(202) 586-0948, or you may mail it to:

                                Office of Inspector General (IG-l)
                                      Department of Energy
                                     Washington, DC 20585

                                   ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov .

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
